<html>
<title> - H. J. RES. 464: H. RES. 449; H.R. 4251; H. CON. RES. 304; H.R. 4022; H.R. 3680; H. CON. RES. 295; AND H.R. 3879</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





  H.J. RES. 464; H. RES. 449; H.R. 4251; H. CON. RES. 304; H.R. 4022; 
               H.R. 3680; H. CON. RES. 295; AND H.R. 3879

=======================================================================

                                 MARKUP

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 13, 2000

                               __________

                           Serial No. 106-156

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
67-626                     WASHINGTON : 2000

                                 ______
                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
     Hillel Weinberg, Senior Professional Staff Member and Counsel
                    Marilyn C. Owen, Staff Associate

                            C O N T E N T S

                              ----------                              
                                                                   Page

Markup of H. Res. 464, expressing the sense of Congress on 
  international recognition of Israel's Magen David Adom Society 
  and its symbol, the Red Shield of David........................     1
Markup of H. Res. 449, congratulating the people of Senegal on 
  the success of the multi-party electoral process...............     3
Markup of H.R. 4251, the Congressional Oversight of Nuclear 
  Transfers to North Korea Act of 2000...........................     4
Markup of H. Con. Res. 304, expressing the strong opposition of 
  Congress to the continued egregious violations of human rights 
  and the lack of progress toward the establishment of democracy 
  and the rule of law in Belarus and calling President Alexander 
  Lukashenka to engage in negotiations with the representatives 
  of the opposition and to restore the constitutional rights of 
  the Belarusian people..........................................     6
Markup of H.R. 4022, regarding the sale and transfer of Moskit 
  anti-ship missiles by the Russian Federation...................     9
Markup of H.R. 3680, to amend the National Defense Authorization 
  Act for Fiscal Year 1998 with respect to the adjustment of 
  composite theoretical performance levels of high performance 
  computers..................................................... 24, 30
Markup of H. Con. Res. 295, relating to continuing human rights 
  violations and political oppression in the Socialist Republic 
  of Vietnam 25 years after the fall of South Vietnam to 
  Communist forces...............................................    29
Markup of H.R. 3879, to support the Government of the Republic of 
  Sierra Leone in its peace-building efforts, and for other 
  purposes.......................................................    34

                                APPENDIX

Prepared statements:

Chairman Benjamin A. Gilman's statement concerning:
    H. Res. 464..................................................    40
    H. Res. 449..................................................    41
    H.R. 4251....................................................    42
    H. Con. Res. 304.............................................    43
Representative Christopher H. Smith's statement concerning H. 
  Con. Res. 304..................................................    45
Chairman Benjamin A. Gilman's statement concerning H.R. 4022.....    47
Representative Dana Rohrabacher's statement concerning H.R. 4022.    49
Chairman Benjamin A. Gilman's statement concerning H.R. 3680.....    51
Representative Donald A. Manzullo's statement concerning H.R. 
  3680...........................................................    52
Representative Joseph Crowley's statement concerning H.R. 3680...    53
Chairman Benjamin A. Gilman's statement concerning H. Con. Res. 
  295............................................................    54
Representative Christopher H. Smith's statement concerning H. 
  Con. Res. 295..................................................    55
Representative Ed Royce's statement concerning H. Con. Res. 295..    59
Representative Dana Rohrabacher's statement concerning H. Con. 
  Res. 295.......................................................    60
Chairman Benjamin A. Gilman's statement concerning H.R. 3879.....    61

Bills and amendments:

H. Res. 464......................................................    62
H. Res. 449......................................................    65
H.R. 4251........................................................    69
H. Con. Res. 304.................................................    76
H.R. 4022........................................................    84
    Amendment to H.R. 4022 offered by Mr. Gejdenson..............    89
    Amendment to the Amendment offered by Mr. Gejdenson, offered 
      by Mr. Bereuter............................................    90
H.R. 3680........................................................    91
    Two Amendments to H.R. 3680, offered by Mr. Gilman, en bloc..    93
H. Con. Res. 295.................................................    95
    H. Con. Res. 295, as amended by the Subcommittee on Asia and 
      the Pacific................................................   100
H.R. 3879........................................................   105
    H.R. 3879, as amended by the Subcommittee on Asia and the 
      Pacific....................................................   118
    Amendment to H.R. 3879 offered by Mr. Campbell...............   130

 
 H. J. RES. 464: H. RES. 449; H.R. 4251; H. CON. RES. 304; H.R. 4022; 
               H.R. 3680; H. CON. RES. 295; AND H.R. 3879

                              ----------                              


                        THURSDAY, APRIL 13, 2000

                          House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:20 a.m., in 
room 2172, Rayburn House Office Building, Hon. Benjamin A. 
Gilman (Chairman of the Committee) presiding.
    Chairman Gilman. The Committee will come to order. The 
Committee on International Relations meets today to mark up 11 
measures, and time is of the essence. In the interest of time, 
we will not read their titles. Members have the agenda before 
them.
    Before we begin, I would like to recognize the gentleman 
from Connecticut, Mr. Gejdenson, our Ranking Democrat, if he 
has any remarks at this time. Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. I have no opening 
remarks, only to say that if we are pressed for time, as I 
understand it, we have to recess because of some meetings, and 
then we are going to be out of session, my understanding is, 
around 5:30. I was wondering if there would be any objection to 
taking up the computer bill, which I think there is agreement 
on, early in the process, since many of the other bills are 
more matters of commendation or have a far more difficult 
prospect in the legislative agenda. So if there are no 
objections, I would hope maybe we could take up that bill 
because it does have such an important impact on our economy 
and technology.
    Chairman Gilman. If the gentleman will yield, we will be 
pleased to try to accommodate the gentleman, but we will start 
in the regular order. We will see how it goes along, and if 
needs be, we will take the computer bill at an early time.


       H. RES. 464, CONCERNING ISRAEL'S MAGEN DAVID ADOM SOCIETY


    We will now consider H. Res. 464, expressing the sense of 
Congress on the international recognition of Israel's Magen 
David Adom Society. The Chair lays the resolution before the 
Committee.
    [The resolution appears in the appendix.]
    Chairman Gilman. The clerk will report the title of the 
resolution.
    Ms. Bloomer. H. Res. 464, a resolution expressing the sense 
of Congress on international recognition of Israel's Magen 
David Adom Society and its symbol, the Red Shield of David.
    Chairman Gilman. This resolution has been referred to the 
Subcommittee on International Operations and Human Rights, 
which has waived its consideration of the resolution. Without 
objection, the clerk will read the preamble and operative 
language of the resolution in that order for amendment. The 
clerk will read.
    Ms. Bloomer. Whereas, Israel's Magen David Adom Society 
has----
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is open for amendment at any 
point. Since I am the prime sponsor, I will recognize myself 
for a few minutes to introduce it to the Committee.
    We are bringing before the Committee today H. Res. 464, 
expressing the sense of Congress on international recognition 
of Israel's Magen David Adom Society and its symbol, the Red 
Shield of David, which I introduced along with our Ranking 
Member, Mr. Gejdenson. This measure reaffirms our support for 
justice and inclusiveness in the International Red Cross 
movement. Resolution 464 lends our support to the efforts of 
the Magen David Society and strongly encourages its acceptance 
as a full member in the international governing body of the 
ICRC.
    This, the Magen David Society, is one of the few Red Cross 
groups that has been kept out of the International Red Cross, 
nor is its symbol allowed, and we are, by this resolution, 
asking for its admission. We affirmed its support in 1987, and 
we requested that they be admitted as full members. We recently 
met with the International President of the Red Cross, Mr. 
Gejdenson and I met with him, urging this be accomplished, and 
we urge adoption of this measure.
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. Let me say that one 
of my most stunning moments, I think, was sitting there with 
you this week when the International Red Cross said yes, they 
were finally about to at least attempt to include the Magen 
David Adom into the International Red Cross. For almost 20 
years, my entire time in Congress, I have sent them an annual 
letter saying, ``Why do you have the Red Cross and the Red 
Crescent in the Red Cross and say they are not religious 
symbols, and why do you say the Magen David Adom is a religious 
symbol?'' I got back the same letter for almost 20 years.
    This year, lo and behold, they are going to try and do what 
is right. I applaud them. I know the Administration has a 
proposal they would like to proceed with, which is a 
reinterpretation or a rational interpretation of the original 
language. Obviously I support the Administration's approach, 
but I am very appreciative of what the International Red Cross 
has done, and I certainly hope they will be successful. It has 
been, I think, one of the few dark marks against a tremendous 
international agency.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Are any other Members seeking recognition?
    [No response.]
    Chairman Gilman. If not, the gentleman from Nebraska, Mr. 
Bereuter, is recognized for offering a motion.
    Mr. Bereuter. Mr. Chairman, I move the Chairman be 
requested to seek consideration of the pending resolution on 
the Suspension Calendar.
    Chairman Gilman. Thank you, Mr. Bereuter.
    The question is on the motion of the gentleman from 
Nebraska. All those in favor of the motion, signify by saying 
aye.
    [A chorus of ayes.]
    Chairman Gilman. All those opposed, say no.
    [No response.]
    Chairman Gilman. The ayes have it, and the motion is agreed 
to. Further proceedings on this matter are postponed.


                    H. RES. 449, RELATING TO SENEGAL


    We will now move to consider H. Res. 449, relating to the 
recent elections in Senegal. The Chair lays the resolution 
before the Committee.
    [The resolution appears in the appendix.]
    Chairman Gilman. The clerk will report the title of the 
resolution.
    Ms. Bloomer. H. Res. 449, congratulating the people of 
Senegal on the success of the multi-party electoral process.
    Chairman Gilman. This resolution was referred to the 
Subcommittee on Asia, reported without amendment on April 12th. 
Without objection, the clerk will read the preamble and 
operative language of the resolution in that order for 
amendment. The clerk will read.
    Ms. Bloomer. Whereas, the Republic of Senegal held----
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is open to amendment at any 
point.
    I now recognize--I see the sponsor, Mr. Payne, is not here. 
Mr. Gejdenson.
    Mr. Gejdenson. Mr. Chairman, this is an appropriate 
response. It is impressive when you see democratic institutions 
developing, and the winners taking office, and those who are 
defeated in honorable contests stepping down. It is a good 
resolution and it ought to pass.
    Chairman Gilman. I support the resolution introduced by Mr. 
Payne. In a region afflicted by military coups, authoritarian 
leaders, and one-party states, Senegal has been a model of a 
stable and pluralist society. The people of Senegal voted for a 
change in leadership and the president stepped down. It sounds 
simple, something that we in a 224-year-old republic take for 
granted, but it is anything but the norm in many parts of the 
world, and in that region in particular.
    I thank the Subcommittee on Africa for calling our 
attention to this matter. We urge passage of House Resolution 
449. Are there any other Members seeking recognition?
    [No response.]
    Chairman Gilman. If not, the gentleman from Nebraska, Mr. 
Bereuter, is recognized to offer a motion.
    Mr. Bereuter. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending resolution on 
the Suspension Calendar.
    Chairman Gilman. The question is on the motion of the 
gentleman from Nebraska, Mr. Bereuter. All those in favor of 
the motion, signify by saying aye.
    [A chorus of ayes.]
    Chairman Gilman. All those opposed, say no.
    [No response.]
    Chairman Gilman. The ayes have it. The motion is agreed to. 
Further proceedings on this measure are now postponed.


 H.R. 4251, CONGRESSIONAL OVERSIGHT OF NUCLEAR TRANSFERS TO NORTH KOREA


    We will now consider H.R. 4251, relating to congressional 
oversight of nuclear transfers to North Korea. The Chair lays 
the bill before the Committee.
    [The bill appears in the appendix.]
    Chairman Gilman. The clerk will report the title of the 
bill.
    Ms. Bloomer. H.R. 4251, a bill to amend the North Korea 
Threat Reduction Act of 1999 to enhance congressional oversight 
of nuclear transfers to North Korea, and for other purposes.
    Chairman Gilman. This bill was referred to the Committee, 
and also to the Committee on Rules, in each case for the 
consideration of matters within the jurisdiction of the 
committee concerned.
    Without objection, the first reading of the bill is 
dispensed with, and the clerk will read the bill for amendment.
    Ms. Bloomer. Be it enacted by the Senate and House of 
Representatives of the United States of America----
    Chairman Gilman. Without objection, the bill is considered 
as having been read and is open to amendment at any point. This 
bill is in the jurisdiction of the full Committee. I introduced 
this bill, and recognize myself to introduce it to the 
Committee.
    I am pleased that Congressman Ed Markey, our distinguished 
colleague from Massachusetts, has again joined me to offer 
bipartisan legislation designed to ensure that any transfers of 
U.S. nuclear equipment or technology to North Korea pursuant to 
the agreed framework of 1994 are carefully reviewed and are 
fully supported by the U.S. Congress before they take place. 
Along with other distinguished cosponsors, including Mr. 
Bereuter and our former colleague on the Committee, Mr. 
Kucinich, we introduced H.R. 4228, the Congressional Oversight 
of Nuclear Transfers to North Korea Act of 2000, earlier this 
week, but our proposal is not a new one.
    For all practical purposes, this bill was passed by the 
House previously. On July 21st of last year, Mr. Markey and I 
offered an amendment to the Foreign Relations Authorization Act 
requiring the President to certify to Congress that North Korea 
has fulfilled all of its obligations under the agreed framework 
before any nuclear cooperation agreement between the United 
States and North Korea can enter into effect. Without such a 
nuclear cooperation agreement, key nuclear components cannot be 
transferred to North Korea from our Nation as contemplated in 
the agreed framework. The Gilman-Markey amendment further 
required that Congress enact a joint resolution concurring in 
the President's certification before such a nuclear cooperation 
agreement can enter into effect.
    Our amendment was approved by a wide margin with strong 
support on both sides of the aisle. We later negotiated with 
the Administration over our amendment. In the conference 
committee on the Foreign Relations Act, we reached agreement 
with the Administration over the language of a certification, 
but the Administration resisted our idea that Congress should 
have any role in evaluating North Korea's compliance with the 
agreed framework by means of a requirement that Congress enact 
a joint resolution concurring in the President's certification.
    Our certification requirement was enacted into law late 
last year as the North Korea Threat Reduction Act of 2000. This 
measure, H.R. 4251, amends the North Korea Threat Reduction Act 
to require that Congress concur in any certification submitted 
by the President pursuant to that Act before any nuclear 
cooperation agreement between our Nation and North Korea can 
enter into effect.
    To ensure that the Congress will carefully review such 
certification, our bill includes expedited procedures for 
consideration in both the House and Senate of a joint 
resolution concurring in the President's certification. This 
feature addresses one of the principal concerns expressed by 
Mr. Gejdenson and others during the debate on the Gilman-Markey 
amendment last summer. We have worked with Mr. Gejdenson's 
staff in developing the language now before the Committee, and 
we hope it once again receives strong bipartisan support.
    Are there any other Members seeking recognition? Mr. 
Gejdenson.
    Mr. Gejdenson. Mr. Chairman, I know that some Members on my 
side still have considerable reservations on this issue, and I 
think we all have to move very cautiously. This is a time that, 
as I understand it, the first very high level summit between 
the North and the South. We have made some incredible progress 
under the present Administration, ending some of the most 
egregious and dangerous activities of the North Korean 
Government, and I think that as we move forward, we want to 
make sure that nothing we do would undermine that progress.
    I know the Administration still has a considerable amount 
of heartburn about this proposal. We believe the goals, without 
question, are completely laudable, and we all support a process 
that thoroughly examines North Korea's activity in the area of 
nuclear, chemical and biological weapons. We hope that the 
language that we have written will create a truly expedited 
procedure, so that at the appropriate time we are not simply 
bogged down in a legislative quagmire and undermine what has 
been steadily increasing progress on the Korean Peninsula.
    Mr. Bereuter. Would the gentleman yield?
    Mr. Gejdenson. I would be happy to yield.
    Mr. Bereuter. I thank the gentleman for yielding. I want to 
tell the gentleman that I am very cautious about us proceeding 
in appropriate fashion, too, and to not create obstacles that 
are inappropriate. This legislation, we could assure our 
colleagues, does not cross the line. It is in fact necessary 
for us to have this kind of assurance by the certification from 
the President, and we do have an opportunity for expedited 
procedure as a part of the legislation.
    I thank my colleague for his expression of concern and want 
to reassure my colleagues that I, as the chairman of the 
geographic authorizing Subcommittee, think this is appropriate 
legislation. I thank the gentleman for yielding.
    Mr. Gejdenson. Thank you.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Is any other Member requesting recognition?
    [No response.]
    Chairman Gilman. If not, the gentleman from Nebraska, Mr. 
Bereuter, is recognized to offer a motion.
    Mr. Bereuter. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending bill on the 
Suspension Calendar.
    Chairman Gilman. The question is on the motion of the 
gentleman from Nebraska. Those in favor of the motion, signify 
by saying aye.
    [A chorus of ayes.]
    Chairman Gilman. Those opposed, say no.
    [No response.]
    Chairman Gilman. The ayes have it. The motion is agreed to. 
Without objection, the Chair or his designee is authorized to 
make motions under Rule XXII with respect to a conference on 
this bill or a counterpart from the Senate. Further proceedings 
on the measure are now postponed.


                      H. CON. RES. 304, ON BELARUS


    We will now consider H. Con. Res. 304 relating to the 
situation in Belarus. The Chair lays the resolution before the 
Committee.
    [The resolution appears in the appendix.]
    Chairman Gilman. The clerk will report the title of the 
concurrent resolution.
    Ms. Bloomer. H. Con. Res. 304, a resolution expressing the 
condemnation of the continued egregious violations of human 
rights in the Republic of Belarus, the lack of progress toward 
the establishment of democracy and the rule of law in Belarus, 
calling on President Alexander Lukashenka's regime to engage in 
negotiations with the representatives of the opposition and to 
restore the constitutional rights of the Belarusian people, and 
calling on the Russian Federation to respect the sovereignty of 
Belarus.
    Chairman Gilman. Without objection, the preamble and 
operative language of the resolution will be read in that order 
for amendment. The clerk will read.
    Ms. Bloomer. Whereas, the United States has a vital 
interest in----
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is open for amendment at any 
point. This resolution is in the original jurisdiction of the 
full Committee. I recognize the sponsor of the resolution, the 
gentleman from Connecticut, Mr. Gejdenson, to introduce it to 
the Committee. Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. I thank you for 
support on this resolution, as I do the 108 cosponsors that we 
have at this point, and I can assure you if there is a 
situation in the world where I could easily get 435 cosponsors, 
had we the time, I would have those 435 cosponsors. But in just 
a few moments yesterday on the floor I was able to get 108 
cosponsors, and it is the broad recognition here in the United 
States and globally that of all the former Soviet Union, now 
Independent States, it appears that Belarus is heading in the 
worst direction.
    The President, Mr. Lukashenka, has gone to 
extraconstitutional activities, attempts to intimidate the 
press and nongovernmental organizations. People who try to 
peacefully demonstrate are arrested and intimidated. Sadly, the 
people of Belarus suffered so much during World War II; much of 
the conflict of World War II between Russia and Nazi Germany 
occurred there in Eastern Europe, in Belarus. The people of my 
own father's home town in Parfianova, in Minsk and all of 
Belarus, suffered greatly, and it is really an outrage they 
continue to suffer today. These are valiant people who have 
gone through much pain, who have seen their pensions disappear 
in economic upheaval. We want them to know there is solidarity 
here in the United States and globally for truly democratic 
reforms, the development of civil society and economic benefit.
    I would far prefer to be here today to talk about what we 
could do together to build a better life for those valiant 
people, rather than to be here today with a resolution that 
points out the egregious acts by its present leaders. Mr. 
Chairman, I know we will have unanimous support for this 
resolution. I won't take up any more of my colleagues' time. 
Thank you.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    This resolution is extremely important for the people of 
Belarus, for their liberty and freedom. I thank our Ranking 
Member, Mr. Gejdenson, for introducing this new version of the 
resolution that he had originally introduced in November.
    Today Mr. Gejdenson has placed before us a measure that 
calls it like it really is in Belarus, pointing out quite 
simply that the regime in Belarus of President Alexander 
Lukashenka is unconstitutional and illegitimate. It is a regime 
that uses the very worst of Soviet-style tactics to repress the 
political opposition and democratic government, denying the 
people of Belarus their rights. It is, in short, nothing less 
than a dictatorship, pure and simple.
    I have been pleased to join the Ranking Member in 
sponsoring this resolution because it points to some very 
troubling facts with regard to the foreign policy of Belarus' 
neighbor, Russia. First, as this measure notes, the Government 
of Russia has been pursuing reunification with Belarus. Such a 
reunification is inappropriate. The President of Belarus and 
the parliament is an illegitimate one, and no such negotiations 
should be conducted with it, or much less agreements ratified 
with it. Any such unification that results in Russia extending 
its military nuclear forces to cover Belarus would be a 
violation of Belarus' status as a non-nuclear state under the 
Nuclear Nonproliferation Treaty.
    The second important point raised by this resolution 
regarding Russia is the fact that Russia has been providing 
considerable financial support, billions of dollars, as a 
matter of fact, to the dictatorship in Belarus.
    There are in fact some issues that regrettably are not 
raised in this measure, including the mysterious incident in 
September 1995 in which a Belarusian helicopter gunship shot 
down an American hot air balloon involved in an international 
race, killing two American civilians, and Lukashenka's eviction 
of our American ambassador from his official residence, in 
violation of international diplomatic conventions. Finally, 
reports that the illegitimate government in Belarus may be 
engaged in proliferation of advanced military technology to 
other such regimes around the world.
    This comprehensive resolution does not go into those 
issues, but as I said, it does indeed do a great service for 
the repressed people of Belarus simply by stating the obvious: 
The Government of Belarus is a dictatorship, and the Government 
of Russia must cease its financial support for that regime, 
respect the sovereignty of Belarus, and join in sincerely 
working for the cause of true democracy in that suffering 
Nation. I fully support the passage of the resolution and urge 
its adoption.
    Are any other Members seeking recognition?
    Mr. Smith. Mr. Chairman.
    Chairman Gilman. Who is seeking recognition? Mr. Smith.
    Mr. Smith. Mr. Chairman, I want to thank you for yielding. 
I would like to thank my colleagues, Mr. Gejdenson and Chairman 
Gilman, for their leadership in constructing this new 
resolution condemning violations of human rights and erosion of 
democracy in Belarus, and calling upon the Lukashenka regime to 
restore the constitutional rights of the Belarusian people, and 
on the Russian Federation to respect the sovereignty of 
Belarus. I appreciate very much your willingness to accept the 
language which I had sought to be included in the resolution.
    Mr. Chairman, last month I chaired a Helsinki Commission 
hearing which addressed many of the issues highlighted in the 
resolution, which featured key leaders of Belarus' opposition 
and two leading State Department officials as well as the 
person in the OSCE parliamentary assembly who is attempting to 
forge a dialogue between the Belarusian authorities and the 
opposition.
    We also heard from Speaker Sharsetsky, who is really a 
speaker in exile. He has literally had his parliament stolen 
from him, and expressed grave concern over his colleagues and 
the lives and livelihoods of his colleagues and the safety of 
the family members of those colleagues who are really now a 
parliament in exile.
    This hearing, Mr. Chairman, was a followup to our April 
1999 hearing on Belarus. In the last few years I and my 
colleagues on the Helsinki Commission have made numerous direct 
and indirect intercessions, including through the OSCE, to draw 
attention to the deplorable situation in Belarus and to 
encourage the establishment of democracy. I thank you for this 
resolution, and yield back the balance of my time.
    Chairman Gilman. Thank you, Mr. Smith.
    Are any other Members seeking recognition? Mr. Pomeroy.
    Mr. Pomeroy. Mr. Chairman, I thank you for yielding, and I 
want to commend the sponsors of this resolution. I think that 
it is important that our Committee, representing the focus and 
the expertise of international relations in the House of 
Representatives, speak out relative to the activities regarding 
the status of the leadership in Belarus. Clearly this is a 
circumstance that cannot be tolerated silently. As you look at 
what is occurring in the variety of experiments taking place in 
governance across the former Soviet states, Belarus stands out 
as not just a glaring disappointment but indeed a tragedy for 
the people there.
    I think that it is difficult to know, as Members of this 
Committee, how best to respond to a circumstance of this 
nature, but clearly I think that a resolution advancing the 
expression that is contained in this resolution is an important 
and appropriate step to take at this point in time. I simply 
watch with some anxiety the prospects of further close linkages 
between Russia and Belarus under this new leadership in Russia. 
We certainly know that the leadership in Belarus has failed its 
people dramatically, and I think that it is an important period 
of time in evaluating what will emerge in terms of a Russia-
Belarus access, if any.
    Hopefully this will have a salutary effect in expressing 
the will of this body, and I commend the sponsors for it, and 
that would be all I would care to say at this time.
    Chairman Gilman. Thank you, Mr. Pomeroy.
    Are any other Members seeking recognition? Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman. I want to commend the 
Ranking Member for bringing up this resolution. I am happy to 
cosponsor it with him.
    We cannot ignore the human rights violations in Belarus. At 
the beginning of its independence it became a non-nuclear 
state, and we should commend them for that, but since then the 
trampling of human rights, the treatment of political 
dissidents, the restriction on information, and the unfairness 
of elections is all reason for this Congress to make its views 
very plain, and that is why I support this resolution.
    Thank you, Mr. Chairman.
    Chairman Gilman. Are any other Members seeking recognition?
    [No response.]
    Chairman Gilman. If not, the gentleman from Nebraska, Mr. 
Bereuter, is recognized to offer a motion.
    Mr. Bereuter. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending resolution on 
the Suspension Calendar.
    Chairman Gilman. The question is on the motion of the 
gentleman from Nebraska. As many as are in favor of the motion, 
signify by saying aye.
    [A chorus of ayes.]
    Chairman Gilman. As many as are opposed, say no.
    [No response.]
    Chairman Gilman. The ayes have it. The motion is agreed to. 
Further proceedings on this measure are postponed.


                       H.R. 4022, MOSKIT MISSILES


    We will now take up H.R. 4022, regarding the sale of Moskit 
anti-ship missiles by the Russian Federation. The Chair lays 
the bill before the Committee.
    [The bill appears in the appendix.]
    Chairman Gilman. The clerk will report the title of the 
bill.
    Ms. Bloomer. H.R. 4022, a bill regarding the sale and 
transfer of Moskit anti-ship missiles by the Russian 
Federation.
    Chairman Gilman. Without objection, the first reading of 
the bill is dispensed with. The clerk will read the bill for 
amendment.
    Ms. Bloomer. Be it enacted by the Senate and House of 
Representatives of the United States of America in Congress 
assembled----
    Chairman Gilman. Without objection, the bill is considered 
as having been read and is open to amendment at any point. The 
bill is in the jurisdiction of the full Committee. I now 
recognize the gentleman from California, Mr. Rohrabacher, the 
sponsor of the bill, to introduce it to the Committee. The 
gentleman is recognized for 5 minutes. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
thank you for expediting the process on H.R. 4022, the Russian 
Anti-Missile Proliferation Act of 2000.
    Later this month the Russian Government is scheduled to 
transfer the first shipment of SS-N-22 Moskit, or also known as 
``Sunburn'' anti-ship missiles, to the People's Republic of 
China. These supersonic missiles, which carry a nuclear-capable 
warhead, were developed for one purpose and one purpose only, 
and that is to destroy American aircraft carriers and their 
support ships, especially those with advanced Aegis battle 
systems.
    Traveling at twice the speed of sound and at a distance of 
up to 65 miles, the missile's 500-pound high explosive warhead 
could debilitate an aircraft carrier. Worse, a battery of eight 
nuclear-tipped Moskits, or ``Sunburns'' as they are called, 
fired from China's newly acquired Russian 956E destroyers, 
could obliterate an entire aircraft carrier battle group, 
killing thousands of American marines and sailors aboard those 
ships.
    The Sunburn's nuclear warhead has a payload of 200 
kilotons, which is more than 10 times the destructive power of 
the atomic bomb that was dropped on Hiroshima. These missiles 
can also be launched from land-based mobile platforms or from 
the air.
    During the last month, newspapers closely tied to the 
governments of Russia and China have written reports on the 
transfer of these ships and these missiles to China, stating 
that these missiles now give China the ability to defeat or to 
fight the U.S. Pacific Fleet to a standstill. A second 956E 
destroyer is scheduled to be transferred to China later this 
year, with at least two more on order. This would give Beijing 
a combined battery of 32 Sunburn, or otherwise called Moskit 
missiles, effectively turning the balance of power in the 
Taiwan Straits and the South China Sea.
    More disturbing, the Russians have given Beijing license to 
produce 200 advanced S-27 jet fighters which can carry the air-
launched version of the Sunburn missile, which has a range of 
more than 100 miles. Guided by the long-range radar of AWACS 
aircraft that the Chinese are currently purchasing from Israel, 
the Chinese will be able to attack American aircraft carrier 
groups in the open seas and far from their own coastline.
    Equally disturbing, in this morning's paper you will see a 
report that the Chinese communists are assisting Libya in 
Libya's ballistic missile development program. In an article in 
the People's Liberation Army magazine published this week, in a 
blatant threat to use force against democratic Taiwan, China 
threatens to defeat the United States militarily through its 
strategic partnership with Russia.
    Mr. Chairman, the writing is on the wall. Their intention 
is clear. This article threatens continued proliferation of 
nuclear missiles to North Korea and other rogue states that are 
enemies of the United States of America.
    H.R. 4022 will prohibit the rescheduling or forgiveness of 
any outstanding bilateral debt of Russia by the United States 
until Russia permanently ends its sale and transfer of Moskit 
or Sunburn anti-ship missiles to countries that would endanger 
United States security. In addition, the legislation requires 
that the President issue reports on Russia's transfer 
activities of the Sunburn missiles 30 days after the bill is 
enacted, for every 6 months thereafter.
    This legislation will not, I repeat, will not stop economic 
assistance to Russia or prevent economic or trade activity 
between the United States and Russia. It does not, I repeat, 
not cutoff funding from the Nunn-Lugar or other programs 
involved in promoting political or economic reform in Russia. 
In fact, it gives Russia the choice of whether to move forward, 
if it prefers, in selling these nuclear capable missiles to a 
potential enemy of the United States, or----
    Mr. Bereuter [presiding]. The time of the gentleman has 
expired. Does the gentleman ask unanimous consent for an 
additional minute?
    Mr. Rohrabacher. I would ask for 1 additional minute.
    Mr. Bereuter. Without objection, that will be the order.
    Mr. Rohrabacher. Or whether or not it instead would prefer 
bilateral debt rescheduling or forgiveness, and the choice is 
theirs. In other words, if they are going to continue sending 
missiles that threaten the lives of thousands, if not millions 
of Americans in the long run, we shouldn't be rescheduling 
their debt. They are making that choice.
    But if we don't, if we keep giving them the options, and we 
reschedule their debt even in the face of this hostile 
activity, we are fools. This is what this legislation is all 
about.
    Mr. Chairman, I urge the Committee to support this 
legislation without adding any sort of Presidential waiver. The 
Commander in Chief is accountable for the lives of our troops. 
We are setting the policy for Congress in a way that says we 
shall not do this which endangers American soldiers and 
sailors; we shall not reschedule the debt of Russia if they 
continue in this line. The President doesn't need a waiver. We 
need to set the policy. The lives of thousands of our brave men 
and women in uniform who are out in the Asia and Pacific 
theater are at stake, and I urge a ``yes'' vote on this 
resolution.
    Chairman Gilman. Mr. Chairman.
    Mr. Bereuter [presiding]. Is there discussion? The Chair 
recognizes Mr. Gilman, the Chairman.
    Chairman Gilman. Yes, thank you. I regret I had to be out 
in the anteroom for a meeting, and may have to return there in 
a moment.
    I would like to state my strong support for the measure 
that is before us today, H.R. 4022, which addresses a 
significant problem we face in our relations with Russia, and I 
would like to point out to my colleagues that as a member of 
the so-called Paris Club of creditor nations, our Nation has 
been very generous in rescheduling the debt owed to us and 
other governments by the Russian Government. We have 
rescheduled that debt on four different dates: 1993, 1994, 
1995, and 1999.
    In hearings on Russia that this Committee held 3 years ago, 
I took the opportunity to note that those reschedulings had 
been an invisible but substantial form of direct aid to the 
Russian Government. Those reschedulings conceded hundreds of 
millions of dollars that it would otherwise have had to pay in 
recent years, instead deferring those payments over many years, 
at some cost to our Nation and other governments.
    But what has that generous approach earned our Nation? 
First, Russia defaulted on its debts to the so-called London 
Club of commercial creditors. In other words, it just stopped 
paying its bank loans. Then Russia defaulted on its debt to our 
Nation and other Paris Club members. What did Russia insist on 
after defaulting on its debts, after all of the generous 
reschedulings of the last decade? It insisted on outright 
forgiveness.
    After months of refusing to pay its commercial debts, 
Russia told London Club creditors to simply write off over $10 
billion in its commercial debt. In addition, after telling the 
Paris Club of official creditors that it wouldn't be making 
billions of dollars in payments due last year and this year, 
Russia is now insisting that they, too, write off one-third of 
the $42 billion it owes them, another $14 billion.
    Mr. Chairman, could we have order, please?
    Mr. Bereuter. The Committee will be in order.
    Chairman Gilman. Thank you, Mr. Chairman.
    My colleagues, permit me to read you a quote from a New 
York Times report of February 13th with regard to what Russia 
is doing:

    The fact that Russia's debt needs to be restructured at all 
is something of a puzzle. Russia, according to key economic 
indicators, should have the money to meet its debt payments. 
Most of the country's revenues come from the export of natural 
resources, especially oil, the price of which is nearing an 
unprecedented $30 a barrel. The Russian Government should 
therefore be reaping high taxes from the profits of Russian oil 
companies. In fact, the Russian state has a huge trade surplus.

    We have to ask, then, why isn't Russia paying what it owes? 
And what is being done to stand up to this kind of an obvious 
shakedown? In August of last year the Paris Club responded with 
strength and vigor to the Russian refusal to pay its debts. 
What did they do? By rescheduling them yet again. Sadly, it has 
been reported that our Nation and the other Paris Club members 
are actually talking with Russia at this time about granting it 
the billions of dollars more in debt forgiveness that Russia 
wants.
    We have to ask ourselves just what is going on here. How 
can the Russian Government have the money to fight a vicious 
war in Chechnya? How can it find hundreds of billions of 
dollars to maintain an espionage facility just 90 miles from 
our shores? How can it deploy new strategic weapons, and yet it 
is too broke to pay what it owes foreign investors and 
creditors, private and official?
    Mr. Rohrabacher's bill before us today really deals with 
two important factors: First, the Russian Government is selling 
to communist China the very advanced technologies, such as the 
Moskit anti-ship missile, that may 1 day be used to attack 
American sailors deployed in defense of democracy in Taiwan. 
Second, at the very time that they are doing that, Russian 
officials insist that they get billions of dollars in debt 
rescheduling and forgiveness.
    I say the time has come to end this situation, which not 
only makes no sense but is highly antithetical to American 
interests, and for that reason I strongly support Mr. 
Rohrabacher's bill and urge my colleagues to do the same. Thank 
you, Mr. Chairman.
    Mr. Ackerman. Will the gentleman yield?
    Chairman Gilman. I will be pleased to yield to the 
gentleman.
    Mr. Ackerman. Thank you very much, Mr. Chairman, as well as 
the maker of the motion. I don't know if you were in the room 
at the time that the gentleman from California raised the 
concern about Israeli technology also being used on this 
particular ship and the threat that that might pose. Is your 
strong----
    Mr. Bereuter. The time of the gentleman has expired. The 
Chair asks unanimous consent that the gentleman have an 
additional minute. Without objection.
    Mr. Ackerman. Is the support for this measure in any way 
indicative that a uniform application of this approach of 
putting an economic squeeze on countries that are supplying 
weaponry or technology to China for use on this ship, such as 
Russia or Israel might be doing, is going to be applied 
uniformly to other countries?
    Chairman Gilman. If I might regain my time from the 
gentleman, the issue with regard to Israeli supply of this kind 
of technology to China is something that is being handled right 
now by the Administration, in discussions between Israel and 
our own defense people, and I think will be resolved probably 
in the next few days. Also, Israel is not asking any debt 
forgiveness from our country or other countries.
    Mr. Ackerman. But we do have an economic relationship. 
Would it not be possible for that----
    Mr. Bereuter. The time of the gentleman has again expired.
    Mr. Ackerman. I ask unanimous consent for 1 additional 
minute.
    Mr. Bereuter. Is there objection?
    [No response.]
    Mr. Bereuter. Without objection, 1 additional minute.
    Mr. Ackerman. Would it not be appropriate for our same 
Administration, in which we have confidence in their 
negotiations with Israel, to allow them to approach the former 
Soviet Union, Russia, to ask them if they might cooperate?
    Mr. Rohrabacher. Would the gentleman yield that answer to 
the author of the----
    Chairman Gilman. I will be pleased to yield to the 
gentleman.
    Mr. Rohrabacher. Let me just say this resolution is 
concerned about the Sunburn or Moskit missile. Yes, we are also 
concerned that there is an AWACS system, that we developed with 
our technology, going to a potential hostile power through 
Israel. That is of concern, but that is not the focus of this 
bill. This bill is aimed totally at Russia and the transfer of 
a missile that can kill hundreds, if not thousands, of U.S. 
sailors. It is not AWACS.
    Mr. Bereuter. The time of the gentleman has expired.
    Is there further discussion?
    Mr. Gejdenson. Mr. Chairman.
    Mr. Bereuter. The Chair recognizes the gentleman from 
Connecticut, Mr. Gejdenson.
    Mr. Gejdenson. Mr. Chairman, I have an amendment at the 
desk.
    Mr. Bereuter. The clerk will read the amendment.
    Ms. Bloomer. Amendment offered by Mr. Gejdenson: Page 4, 
line 4, strike ``notwithstanding'' and insert ``(a) prohibition 
notwithstanding.'' Page 4, line 8, strike ``permanently.'' Page 
4, after line 11, insert the following: ``(b) Waiver. The 
President may waive the application of subsection (a) if the 
President determines and certifies to the Committee on 
International Relations of the House of Representatives and the 
Committee on Foreign Relations of the Senate that such waiver 
is important to the national security interests of the United 
States.''
    Mr. Bereuter. The gentleman is recognized for 5 minutes on 
behalf of his amendment.
    Mr. Gejdenson. Thank you, Mr. Chairman.
    This is a rather direct amendment. It deals with two 
issues. One is, it just simply strikes the word ``permanently'' 
because, frankly, we couldn't get a definition of what that 
meant. We want the President, as does the author of the bill, 
to end the Soviet transfer of these systems to the Chinese. We 
are as concerned about it as he is.
    We would hope that the gentleman from California in the 
future would not prevent Russian companies like the satellite 
launching companies, that seem to have the best record on 
nontransfer of technology, from being restricted, because we 
are in this quandary.
    We have spent, since the end of World War II, trillions of 
dollars trying to contain the Soviet Union. The Soviet Union 
finally crumbled of its own weight in competition with the free 
world. At this point we have a country that has never had a 
modern democratic free market system. It went from the 
feudalism of the czars to the Soviet system, and now it has 
staggered toward democracy.
    Our colleagues here have sometimes been helpful and 
sometimes we have been hurtful. But it is clear to everyone, 
and I believe everyone in this chamber, that it is not in 
America's best interest to see Russia spin out of control, to 
see the nationalists, the communists and other extremists take 
over that country.
    So while I join the gentleman in his goal of preventing 
Russia from proliferating, it seems also clear that we have a 
stake in seeing Russia survive. Indeed it is a difficult 
balance, and frankly it is not a balance that can be brought 
about with 535 negotiators. You cannot have 535 Members of 
Congress, House and Senate, negotiating with Mr. Putin. You 
cannot have us at every discussion. So while I agree with the 
gentleman's guidance, I think it is irresponsible not to have a 
national security waiver. That we give the President leverage 
through this legislation, I agree, and I agree it is terribly 
important.
    You know, on the debt rescheduling issue, there are a 
couple of sides to that coin. On one hand, obviously it would 
be further damaging to the fledgling free market in Russia to 
have them fail to repay their debt. On the other hand, it 
doesn't do much good for the creditors.
    So this balance of rescheduling debt is not simply a gift 
to the country that has the debt; it is also an attempt to 
regain the maximum amount for those who have lent the debt. In 
using that leverage, what we try to do is move Russia, a 
country that has never been free, that has never had a free 
market, toward a system of laws and business operation that 
will give its people a better life and, hopefully, sustain 
democracy.
    I come from a family that fled the Soviet Union. I am 
particularly sensitive to the horrors of Stalin's atrocities, 
and the dangers that Soviet nuclear, chemical, and biological 
weaponry presented to the world. We have an opportunity to 
improve that 50-year conflict, and we are in the process of 
doing so.
    I would hope that, even with his reservations, the 
gentleman from California would accept this amendment. This 
amendment will either be accepted here, or it will happen in 
conference, or this legislation will very likely not go into 
effect. So it seems to me if we want to do more than just make 
speeches here, we ought to put the gentleman's tough language 
forward, get broad-based support for the bill out of this 
Committee, but also do it in a responsible manner, and that is 
to give a Presidential waiver so that the President does have 
that ability to negotiate on these issues.
    Mr. Bereuter. I thank the gentleman.
    The gentleman from California is entitled to be heard at 
this point. The Chair recognizes Mr. Rohrabacher.
    Mr. Rohrabacher. I rise in strong opposition to this 
proposed amendment. Mr. Gejdenson finished his remarks by 
saying that we want to do more than just give speeches here. 
Apparently that is what Mr. Gejdenson believes, that this is 
our total responsibility, just to give speeches. The fact is, 
we should be doing more than just talking to one another. We 
should be trying to set policy when it is of vast importance, 
when it is of vital importance to the security of the United 
States of America.
    Now, the President of the United States already has 
leverage that he can exercise to try to prevent the transfer of 
these deadly technologies by Russia to enemies of the United 
States. We wish Russia well, but we do not wish Russia well in 
its activities, in its transfer of technology that could end up 
killing tens of thousands of Americans in military uniform who 
are out there in the front lines trying to defend our interests 
in the Pacific.
    The choice is up to Mr. Putin. Now, he can choose to be our 
friend and we can reschedule his debt, or he can move to 
transfer these deadly weapons to potential enemies of the 
United States, to people who claim that they will use these 
weapons against the United States in order to achieve their 
foreign policy objectives.
    No, Mr. Gejdenson, we should be doing more than just giving 
speeches. We should be setting policy. This amendment is a 
killer amendment. This amendment says leave the decision to the 
President of the United States and Congress is going to butt 
out. Well, that is not what we should be about when we see the 
interests of the United States not being taken care of.
    There has already been a transfer, due to the inaction of 
this Administration, a transfer of the naval platforms on which 
these deadly missiles will be based. Now, in a last-ditch 
effort, we need to stop the transfer of those missiles. Once 
these missiles are in the hands of the Chinese, our Seventh 
Fleet is in great jeopardy, and if something happens, the blood 
of those sailors will be on our hands if we pass the buck to 
the President of the United States.
    Let's do more than just give speeches in here. Let's set 
policy, and let's look out for the interests of our people. So 
I would urge my colleagues to oppose this killer amendment. 
This makes a mockery of the power of this body, of our 
Committee, to be involved in the foreign policy of the United 
States of America. So I would ask you, urge you, to vote 
against this killer amendment.
    Chairman Gilman. Thank you, Mr. Rohrabacher.
    The gentleman from North Dakota, Mr. Pomeroy, is recognized 
for 5 minutes.
    Mr. Pomeroy. I thank the Chairman, and I thank the sponsor 
of the legislation, because clearly this is a missile that is 
of concern and we don't want proliferation of this type of 
thing throughout the world, particularly places that might 
ultimately use it against us.
    On the other hand, I do think that this is the kind of bill 
that presents something that needs to be considered in the 
totality of its context. Missiles aren't the only threat to 
global security. Economics plays a big part as well, and that 
is where we have to look at the remedy pursued by the bill and 
carefully evaluate whether we have enough information to make a 
judgment this morning on the consequences of restricting this 
government from further renegotiation of Russian debt.
    The result of that would be to essentially force Russia 
into a pay-in-full or default position. It would undoubtedly 
trigger other members of the Paris Club to do the same thing 
relative to their debt, and inevitably Russia would be in a 
default position because we all know they don't have the money 
to pay. Now, that would undoubtedly deeply impact the people of 
Russia in ways that we may or may not be comfortable with.
    I am convinced, however, that the impact wouldn't even stop 
there. The last time Russia got into debt trouble, it I think 
fell perhaps with greatest impact on the people of Brazil, 
because shortly thereafter Brazil had a currency flight problem 
as well. The entire international investment community gets 
very, very nervous, not just with the country at issue but with 
other emerging countries, other emerging economies across the 
globe.
    So if this Committee would advance legislation which would 
ultimately force Russia into default, we might be impacting 
these emerging economies recovering in Asia. We might be 
absolutely dooming the government in Brazil, in light of 
currency flight. We certainly do not know the full economic 
dimensions about the instability that we could cause by causing 
a flight of currency all across the world.
    Mr. Rohrabacher. Would the gentleman yield?
    Mr. Pomeroy. I would be happy to yield.
    Mr. Rohrabacher. There has been testimony in front of this 
Committee that Russia at this time is flush with cash because 
of the increase in the price of oil, and if there was ever a 
time for us to take a stand to prevent them from transferring 
weapons that could be used to kill thousands of Americans, now 
is the time.
    I can understand the gentleman's reluctance to push Russia 
over the edge at a moment of crisis. This is not a moment of 
crisis for Russia. But we should at times like this be setting 
the standard, so they know that we are not going to reschedule 
their debt when they are in a crisis, if they are going to do 
things that put Americans by the tens of thousands of us at 
risk.
    Mr. Pomeroy. Reclaiming my time, I think the gentleman 
makes a good point, and I think the legislation makes an 
important point. I just don't think it ought to be passed in 
its original form, because I think that most of us have a 
strong sense that if you match Russia's assets, including their 
current cash, against their existing liabilities, you would 
have a mismatched situation and they would be in default. 
Because I don't think that you are going to have other members 
of the Paris Club, other creditor nations to Russia, exercising 
forbearance if we are not going to forbear ourselves.
    In fact, I have just been given information that shows that 
Russia has a $426 billion debt against $15 billion of assets. 
So whether or not that is indeed the situation, there is 
certainly a dimension to this that I think needs to be very 
fully explored. There is a global economic consequence 
potentially presented by the legislation.
    Now, what we could do is one of two things: Pass the 
amendment which allows the Administration to draw upon their 
expertise and, if required, give a waiver; or, it would seem to 
me, hold this legislation in abeyance while we proceed with a 
series of hearings to evaluate whether or not the legislation 
addressing an absolutely legitimate national security concern 
would, on the other hand, generate further instability across 
the global economies that would at least present maybe as 
significant a national security issue.
    So, for that reason, while I respect the intention behind 
the legislation, I would urge us strenuously to support the 
amendment.
    Chairman Gilman [presiding]. The gentleman has consumed his 
time.
    Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman.
    I can understand why the gentleman from California has 
offered his resolution. It is an important one, and he points 
out a real concern that our country should have.
    However, I am going to speak in behalf of the Gejdenson 
amendment and hope that we adopt it and then pass the 
resolution. Later today, we may get to legislation which the 
Administration opposes, and they oppose it, unfortunately, like 
the Executive Branch usually opposes legislation because they 
don't want Congress to actually be involved in foreign policy. 
This Committee needs to reassert itself and be engaged in 
foreign policy.
    Even if this amendment is adopted, as I believe it should 
be, and the resolution is passed, it does send an important 
message to the Administration that they need to heed. But I 
will almost always, under any circumstances, provide a waiver 
to the President on a matter of this importance.
    We have heard some rhetoric today which brings another 
issue to bear, and that is related to an expected sale of an 
AWACS-type aircraft by Israel to Russia. If you look at the 
Washington Post editorial today, you will understand that in 
their judgment, and in mine as well, it is one more result of a 
failure in China policy on the part of this Administration.
    I do believe if we look back at one of the larger blunders 
of the late 20th century, we are going to have to conclude that 
was the way the West, particularly the United States, handled 
its aid program to Russia and to the other republics of the 
former Soviet Union. We have bungled it badly, and, of course, 
they have taken every inappropriate advantage of the way we 
have handled it.
    But I would say that in this situation the matter is of 
such import that the President really must have this waiver. He 
really deserves to have this waiver as the head of our 
Executive Branch. Having said that, I will again reiterate that 
I hope the Administration will act in a fashion that is really 
consistent with what the gentleman from California intends.
    Mr. Campbell. Would the gentleman yield?
    Mr. Bereuter.  But I do not want to precipitate a problem 
here by refusing to give the President a waiver.
    I yield to the gentleman from California, Mr. Campbell.
    Mr. Campbell. I thank the gentleman from Nebraska.
    I have a problem, though, with the language that says the 
waiver is simply important to the national security interest. 
That strikes me as about the lowest possible standard. My 
recollection is, when we have done waivers before, it has been 
a much higher standard, such as ``compelled'' the interests of 
the United States that the national security requires. Boy, it 
is easy to meet ``important to.'' I mean, frankly, my colleague 
from California is right about that: This is too big a waiver.
    I yield back.
    Mr. Bereuter. Well, the gentleman is right.
    Mr. Gejdenson. Would the gentleman yield?
    Mr. Bereuter. I yield to the gentleman from Connecticut to 
see if he might want to change that language. It may be 
inadvertent.
    Mr. Gejdenson. This is actually a higher standard. I could 
have counsel explain. There are several different standards, 
and the lowest is simply ``in the national interest.'' Then 
this is the next stage, which is, ``in the national security 
interest.'' And then the third stage is ``important to the 
national security.'' So that is the tradition of the chamber, 
and----
    Mr. Campbell. Do we have an advisory opinion from the 
College of Cardinals on this?
    Mr. Gejdenson. I think we have had enough debate over 
religious issues in the House Chamber. We ought to stick to 
foreign policy here.
    Mr. Bereuter. Reclaiming my time, Mr. Chairman, I would 
move that the amendment be amended and insert, before the word 
``important,'' ``vital''----
    Chairman Gilman. Will the gentleman accept the amendment?
    Mr. Gejdenson. I will be happy to accept the amendment.
    Mr. Bereuter [continuing]. ``Vital to the national 
interests,'' in substitute for the word ``important.''
    Mr. Gejdenson. I will be happy to accept the amendment.
    Mr. Bereuter. I thank the gentleman.
    Chairman Gilman. Without objection, the amendment is agreed 
to. Any further? Who else seeks recognition? Mr. Sherman?
    Mr. Sherman. Yes, I can see why my colleague from 
California would object to this amendment, in that it 
substantially weakens his resolution. I don't think that we 
should always give the Administration a waiver, because if we 
are really going to be involved in foreign policy, we have to 
say what we mean and mean what we say, and actually influence 
outcomes rather than merely influence reports that are filed 
with us explaining why they are going to do what they are going 
to do anyway.
    On the other hand, at this point I am not prepared to vote 
for a resolution as strong as that suggested by Mr. 
Rohrabacher, because it is focused on one weapons system. We 
have not involved the Armed Services or National Security 
Committee in telling us, is this the most important weapons 
system?
    I don't know, and we have not had hearings on whether this 
system can be obtained by the Chinese from other sources, such 
as the French or the British, and whether they would be willing 
to sell; whether there are other missile systems capable of 
posing an equal threat to the ships of the Seventh Fleet; 
whether Chinese domestic technology is almost at the same 
level; whether the Russians and Chinese could evade this 
resolution by transferring technology rather than transferring 
missiles; how we would even know that technology had been 
transferred.
    I am not at all sure that I would not vote for a very 
strong resolution, but only if we were able to answer an awful 
lot of questions that----
    Mr. Rohrabacher. Would the gentleman yield so I could 
answer some of those questions?
    Mr. Sherman. I don't know if we have that kind of time to 
devote to this. I would be happy, but I doubt that all of the 
questions that I have can be answered in the scope of a mark-
up.
    Mr. Rohrabacher. Well, how about the ones you just brought 
up?
    Mr. Sherman. I have got a few more, but go ahead with the 
ones I brought up.
    Mr. Rohrabacher. Floyd Spence is the Chairman of the 
National Security Committee. Floyd Spence is a cosponsor of 
this bill. The Russians are the only ones who manufacture this 
type of technology. The communist Chinese are incapable of 
manufacturing this type of technology; that is why they are 
purchasing it from Russia. Those are to answer your first three 
questions.
    Chairman Gilman. Any other Members seek----
    Mr. Sherman. Mr. Chairman, reclaiming my time, I mean it is 
good to get those shorthand answers from a gentleman that I 
respect, and yet that doesn't quite substitute for the kind of 
in-depth information that we should have before we adopt a 
resolution of the strength that was originally----
    Mr. Rohrabacher. Is the gentleman aware that the delivery 
of these missiles will happen within 30 days unless this 
Congress acts? Do people understand that we are right now 
giving the communist Chinese the signal and the Russians the 
signal to move forward with a transfer of these deadly 
missiles?
    If this amendment passes, we are sending a signal to the 
Russians to transfer missiles that will put tens of thousands 
of American sailors in jeopardy. That is what this vote on this 
amendment means.
    Mr. Sherman. Reclaiming my time, if we are under that kind 
of time restraint, maybe we ought to agree to the substitute 
version that Mr. Gejdenson has presented to us, because I agree 
with his analysis. A resolution of the strength put forward by 
the gentleman from California is unlikely to become law in this 
country within the next 30 days. It may not even get out of 
this Committee before then. Given that kind of time restraint, 
I think the most we can do is send a strong signal and hope 
that the Administration can delay or prevent this transfer.
    Mr. Rohrabacher. I would agree a strong signal is something 
we should send. Thank you very much.
    Mr. Sherman. I yield back, Mr. Chairman, and move the 
previous question.
    Chairman Gilman [presiding]. Are any other Members seeking 
recognition?
    [No response.]
    Chairman Gilman. If not, the question is now on the 
Gejdenson amendment. All in favor, signify in the usual manner.
    [A chorus of ayes.]
    Chairman Gilman. Opposed?
    [A chorus of noes.]
    Chairman Gilman. The noes have it.
    Mr. Sherman. Mr. Chairman, I ask for a recorded vote.
    Chairman Gilman. Is there a sufficient second?
    [A show of hands.]
    Chairman Gilman. A sufficient number. The clerk will call 
the roll.
    Ms. Bloomer. Mr. Gilman.
    Chairman Gilman. No.
    Ms. Bloomer. Mr. Gilman votes no.
    Mr. Goodling.
    [No response.]
    Ms. Bloomer. Mr. Leach.
    [No response.]
    Ms. Bloomer. Mr. Hyde.
    [No response.]
    Ms. Bloomer. Mr. Bereuter.
    Mr. Bereuter. Yes.
    Ms. Bloomer. Mr. Bereuter votes yes.
    Mr. Smith.
    Mr. Smith. No.
    Ms. Bloomer. Mr. Smith votes no.
    Mr. Burton.
    Mr. Burton. No.
    Ms. Bloomer. Mr. Burton votes no.
    Mr. Gallegly.
    Mr. Gallegly. No.
    Ms. Bloomer. Mr. Gallegly votes no.
    Ms. Ros-Lehtinen.
    [No response.]
    Ms. Bloomer. Mr. Ballenger.
    [No response.]
    Ms. Bloomer. Mr. Rohrabacher.
    Mr. Rohrabacher. No.
    Ms. Bloomer. Mr. Rohrabacher votes no.
    Mr. Manzullo.
    [No response.]
    Ms. Bloomer. Mr. Royce.
    Mr. Royce. No.
    Ms. Bloomer. Mr. Royce votes no.
    Mr. King.
    [No response.]
    Ms. Bloomer. Mr. Chabot.
    Mr. Chabot. No.
    Ms. Bloomer. Mr. Chabot votes no.
    Mr. Sanford.
    Mr. Sanford. No.
    Ms. Bloomer. Mr. Sanford votes no.
    Mr. Salmon.
    [No response.]
    Ms. Bloomer. Mr. Houghton.
    [No response.]
    Ms. Bloomer. Mr. Campbell.
    Mr. Campbell. No.
    Ms. Bloomer. Mr. Campbell votes no.
    Mr. McHugh.
    [No response.]
    Ms. Bloomer. Mr. Brady.
    Mr. Brady. No.
    Ms. Bloomer. Mr. Brady votes no.
    Mr. Burr.
    [No response.]
    Ms. Bloomer. Mr. Gillmor.
    [No response.]
    Ms. Bloomer. Mr. Radanovich.
    Mr. Radanovich. No.
    Ms. Bloomer. Mr. Radanovich votes no.
    Mr. Cooksey.
    [No response.]
    Ms. Bloomer. Mr. Tancredo.
    Mr. Tancredo. No.
    Ms. Bloomer. Mr. Tancredo votes no.
    Mr. Gejdenson.
    Mr. Gejdenson. Aye.
    Ms. Bloomer. Mr. Gejdenson votes yes.
    Mr. Lantos.
    [No response.]
    Ms. Bloomer. Mr. Berman.
    [No response.]
    Ms. Bloomer. Mr. Ackerman.
    Mr. Ackerman. Aye.
    Ms. Bloomer. Mr. Ackerman votes yes.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Yes.
    Ms. Bloomer. Mr. Faleomavaega votes yes.
    Mr. Martinez.
    [No response.]
    Ms. Bloomer. Mr. Payne.
    [No response.]
    Ms. Bloomer. Mr. Menendez.
    [No response.]
    Ms. Bloomer. Mr. Brown.
    Mr. Brown. Yes.
    Ms. Bloomer. Mr. Brown votes yes.
    Ms. McKinney.
    [No response.]
    Ms. Bloomer. Mr. Hastings.
    Mr. Hastings. Yes.
    Ms. Bloomer. Mr. Hastings votes yes.
    Ms. Danner.
    Ms. Danner. Yes.
    Ms. Bloomer. Ms. Danner votes yes.
    Mr. Hilliard.
    Mr. Hilliard. Yes.
    Ms. Bloomer. Mr. Hilliard votes yes.
    Mr. Sherman.
    Mr. Sherman. Yes.
    Ms. Bloomer. Mr. Sherman votes yes.
    Mr. Wexler.
    Mr. Wexler. Aye.
    Ms. Bloomer. Mr. Wexler votes yes.
    Mr. Rothman.
    Mr. Rothman. Aye.
    Ms. Bloomer. Mr. Rothman votes yes.
    Mr. Davis.
    Mr. Davis. Aye.
    Ms. Bloomer. Mr. Davis votes yes.
    Mr. Pomeroy.
    Mr. Pomeroy. Yes.
    Ms. Bloomer. Mr. Pomeroy votes yes.
    Mr. Delahunt.
    Mr. Delahunt. Aye.
    Ms. Bloomer. Mr. Delahunt votes yes.
    Mr. Meeks.
    Mr. Meeks. Aye.
    Ms. Bloomer. Mr. Meeks votes yes.
    Ms. Lee.
    Ms. Lee. Aye.
    Ms. Bloomer. Ms. Lee votes yes.
    Mr. Crowley.
    Mr. Crowley. Aye.
    Ms. Bloomer. Mr. Crowley votes yes.
    Mr. Hoeffel.
    Mr. Hoeffel. Yes.
    Ms. Bloomer. Mr. Hoeffel votes yes.
    Chairman Gilman. The clerk will call the absentees.
    Ms. Bloomer. Mr. Goodling.
    Mr. Goodling. No.
    Ms. Bloomer. Mr. Goodling votes no.
    Mr. Leach.
    [No response.]
    Ms. Bloomer. Mr. Hyde.
    [No response.]
    Ms. Bloomer. Ms. Ros-Lehtinen.
    [No response.]
    Ms. Bloomer. Mr. Ballenger.
    Mr. Ballenger. No.
    Ms. Bloomer. Mr. Ballenger votes no.
    Mr. Manzullo.
    [No response.]
    Ms. Bloomer. Mr. King.
    Mr. King. No.
    Ms. Bloomer. Mr. King votes no.
    Mr. Salmon.
    Mr. Salmon. Aye.
    Ms. Bloomer. Mr. Salmon votes yes.
    Mr. Houghton.
    [No response.]
    Ms. Bloomer. Mr. McHugh.
    [No response.]
    Ms. Bloomer. Mr. Burr.
    [No response.]
    Ms. Bloomer. Mr. Gillmor.
    [No response.]
    Ms. Bloomer. Mr. Cooksey.
    [No response.]
    Ms. Bloomer. Mr. Lantos.
    [No response.]
    Ms. Bloomer. Mr. Berman.
    [No response.]
    Ms. Bloomer. Mr. Martinez.
    [No response.]
    Ms. Bloomer. Mr. Payne.
    Mr. Payne. Aye.
    Ms. Bloomer. Mr. Payne votes yes.
    Mr. Menendez.
    [No response.]
    Ms. Bloomer. Ms. McKinney.
    [No response.]
    Chairman Gilman. The clerk will report the tally.
    Mr. Menendez. Mr. Chairman, how am I recorded?
    Ms. Bloomer. Mr. Menendez is recorded as not having voted.
    Mr. Menendez. No.
    Ms. Bloomer. Mr. Menendez votes no.
    Chairman Gilman. Any other Member who has not been 
recorded?
    [No response.]
    Chairman Gilman. The clerk will report the tally.
    Ms. Bloomer. On this vote there were 20 ayes and 16 noes.
    Chairman Gilman. The amendment is agreed to.
    The question was not on final passage.
    I will ask unanimous consent that the Committee be deemed 
to have before it an amendment in the nature of a substitute 
consisting of the text of the bill as amended to this point. 
Without objection, the amendment in the nature of a substitute 
is deemed read, the previous question is ordered on the 
amendment, and the amendment is adopted.
    Mr. Bereuter. I move that the Committee report the bill to 
the House with a recommendation that the bill, as amended, be 
passed. But I had assumed that we wanted it on the Suspension 
Calendar and that the maker of the resolution wanted it on the 
Suspension Calendar, as well.
    Mr. Rohrabacher. Mr. Chairman.
    Chairman Gilman. Mr. Rohrabacher, please be brief.
    Mr. Rohrabacher. OK. Mr. Chairman, what we are saying then 
is by going to the Suspension Calendar, it cannot be amended on 
the floor. I do not want this to go to the floor in an 
unamended fashion.
    Mr. Bereuter. Very well, then. I leave the motion as it is.
    Chairman Gilman. The question is on the motion by Mr. 
Bereuter. All in favor, signify in the usual manner.
    [A chorus of ayes.]
    Chairman Gilman. Opposed?
    [No response.]
    Chairman Gilman. The motion is carried, a quorum being 
present. Without objection, the Chair or his designee is 
authorized to make motions under Rule XXII with respect to a 
conference on this bill or a counterpart from the Senate.
    The Committee stands in recess. When we return, we will 
consider H.R. 3680. Please come back as quickly as possible.
    [Recess.]


           H.R. 3680, CONTROLS ON HIGH PERFORMANCE COMPUTERS


    Chairman Gilman. The Committee will come to order.
    We will now consider H.R. 3680, relating to notice periods 
for high performance computers. The Chair lays the bill before 
the Committee.
    [The bill appears in the appendix.]
    Chairman Gilman. The clerk will report the title of the 
bill.
    Ms. Bloomer. H.R. 3680, a bill to amend the National 
Defense Authorization Act for Fiscal Year 1998 with respect to 
the adjustment of composite theoretical performance levels of 
high-performance computers.
    Chairman Gilman. The bill was referred to the Committee, 
and in addition the Committee on Armed Services, in each case 
for consideration of such provisions as fall within the 
jurisdiction of the committee concerned. Without objection, the 
first reading of the bill is dispensed with. The clerk will 
read the bill for amendment.
    Ms. Bloomer. Be it enacted by the Senate and House of 
Representatives of the United States of America in Congress 
assembled, Section 1. Adjustment of composite theoretical 
performance levels of high performance computers. Section 
1211(d) of the National Defense----
    Chairman Gilman. Without objection, the bill is considered 
as having been read and is open to amendment at any point. The 
bill was referred to the Subcommittee on International Economic 
Policy and Trade, was reported by voice vote and without 
amendment.
    Without objection, I will now recognize Ms. Zoe Lofgren 
from California, a proponent of the bill.
    Ms. Lofgren. Thank you very much, Mr. Chairman. I would 
just like to express my appreciation for the support we 
received on this important measure from the Committee.
    This will prevent the problem that we face as the updating 
of our export rules has not been able to keep pace with the 
rapid change in technology, which at one point last year 
resulted in the anomaly of a Sony Play Station, a children's 
toy, falling within the proscription for exports. We need to 
have the changes be put into play rapidly.
    There are many Members who believe that we need to revamp 
the entire system. That is probably true, but beyond the scope 
of this bill. This is simply to allow the changes that we agree 
on to happen in a rapid fashion. There are two friendly 
amendments that will be offered, that I agree with. As Mr. 
Dreier could not be here, he asked me to give greetings and 
best wishes to all the Committee, as he is the other primary 
sponsor of the bill.
    I yield back my time.
    Chairman Gilman. Thank you, Ms. Lofgren, for coming before 
our Committee.
    I intend to offer some perfecting technical amendments that 
would shorten the title and clarify the date of applicability 
of any new regulations submitted by the Administration before 
the enactment of this legislation. This bill, which passed the 
House last year, would simply shorten the review period for 
these high performance computers from 120 to 30 days.
    It was reported out of the International Economic Policy 
and Trade Subcommittee by a voice vote last week, on April 6th, 
and enjoys broad bipartisan support. I would like to thank 
Chairwoman Ileana Ros-Lehtinen and Ranking Member Robert 
Menendez for their leadership in moving this important measure 
forward.
    Currently, the National Defense Authorization Act requires 
a 6-month waiting period before the Administration can update 
our export control thresholds for supercomputers. When the bill 
went into effect in 1998, it targeted computers that operated 
above 2,000 million theoretical operations per second, MTOPS, 
but many of today's personal computers now operate in the 4,000 
MTOPS range. While the Administration raised the supercomputer 
threshold levels in February, a mandatory 6-month waiting 
period no longer makes sense for these products, which now have 
a 3-month life cycle.
    I know many of our colleagues would like to include other 
related issues in the bill, but I would urge them to join in 
moving it to the floor as quickly as possible. Keeping it free 
of amendments is the best way and only way to ensure it will be 
enacted this year.
    I now turn to Mr. Gejdenson.
    Mr. Gejdenson. I can remember when we had this fight on the 
floor several years ago, and we lost, and I am glad that we are 
here now, several years late, undoing what we never should have 
done. I think the Chairman said it well. We have said it 
before: We were tying products up in months of regulatory red 
tape, when the shelf life of the product wasn't that long, was 
going to be 180 days or less. We are looking at toys, as the 
gentlelady indicated, that have operational capabilities that 
would be snared by regulation and law that is designed to 
prevent our enemies from accessing military and critical 
technologies.
    The lesson here is very clear. Modern technology is moving 
at a speed unheard of in the history of man, and what history 
has taught us is, those who take advantage of technology and 
move on are the ones that succeed. We are not capable of 
shrouding this technology and hiding it from the rest of the 
world. Within short periods of time from when we develop this 
technology, other countries make it, and once it is globally 
available, the only thing you do is determine who will have the 
resources to develop the next generation of technology.
    Keeping America safe is keeping our technological 
advantage. Keeping our technological advantage is dependent on 
the resources, the profit of sales happening in an expedited 
manner. Keeping our enemies from having dangerous technology 
depends on focusing our resources on choke point technologies. 
We should have done this long ago. I am happy we are doing it 
today.
    Chairman Gilman. Mr. Manzullo.
    Mr. Manzullo. Thank you, Mr. Chairman. I rise in strong 
support of H.R. 3680. As an early cosponsor, I am pleased to 
see the Committee take quick action on this much-needed 
legislation.
    It was 3 years ago that Congress imposed this requirement 
which forces computer companies to wait 6 months for the 
completion of a congressional review to see if an advanced but 
widely available computer can be exported. In an environment 
where computer product life cycles are now 3 months, this 6-
month requirement does not reflect technological reality; it 
doesn't today, and it didn't 3 years ago.
    I hate to say I told you so, but I predicted this outcome 
in 1997. Only 88 Members of Congress had the foresight and 
courage to stand against emotionalism by opposing the original 
amendment that is corrected by today's bill. I am pleased to 
point out that many of those brave 88 Members sit on this 
Committee, including you, Mr. Chairman.
    I ask the Committee's support for this narrow, rifle shot 
bill so we can correct the most egregious export control 
problem that we have. If we want to keep high tech 
manufacturers here in this country and allow them to remain 
robust and healthy, then I would ask all Members to support 
H.R. 3680. Thank you.
    Chairman Gilman. Mr. Sanford.
    [No response.]
    Chairman Gilman. Mr. Menendez.
    Mr. Menendez. Thank you, Mr. Chairman.
    Mr. Chairman, I want to first commend the gentlelady from 
California for her efforts in this regard, and really in due 
deference to her, I have not offered amendments that I think 
are important to expand the scope of what we need to do. So I 
intend to support the legislation.
    But let me just say that the 180-day congressional 
notification period for increasing the MTOPS level for export 
sales has handicapped the American computer industry and made 
it impossible for the U.S. Government to respond quickly to the 
latest advances in computer processing technology. Last summer, 
for example, new personal computers introduced by Apple and IBM 
surpassed the MTOPS level for exports for Tier 3 countries like 
Israel and Egypt, and it wasn't until after the 180-day 
notification period ended in January that these computers were 
allowed to be sold without a license.
    Later this year, Intel is expected to introduce the Itanium 
chip--and I have a little copy of what it would look like, one 
of these would allow a computer that uses four of these chips 
to operate at nearly 23,000 MTOPS, a level that exceeds current 
policy for export sales to Tier 2 and Tier 3 countries. In a 
computer industry where the average shelf life of a computer is 
incredibly short, a 6-month delay in sales is a very long time, 
particularly when overseas competitors are nipping at the heels 
of American companies.
    So, for these reasons, I am strongly supporting this 
legislation. However, I am disappointed that we are only 
addressing the MTOPS notification period. This legislation does 
not address other problems like the 120-day notification period 
for moving countries between tiers, and burdensome post-
shipment verification requirements.
    More importantly, while the bill fixes one problem, it is 
ultimately not a substitute for reauthorizing the Export 
Administration Act and updating our Cold-War-era export control 
policies. I believe that American industry deserves laws that 
are responsive to today's global economy, not laws that were 
created over two decades ago to respond to Cold War era 
threats.
    No one in Congress is advocating for changes that would 
undermine our national security, but rather for policy changes 
that would ensure our national security while also streamlining 
our export control laws to focus on those countries and those 
exports that are of greatest concern to our Nation. It is our 
obligation to address this issue. I think that the Congress, 
for a long time not having spoken on this issue, has abdicated 
its role and its authority to the Executive Branch, and I think 
that that is a mistake on behalf of the Congress.
    To ensure that our laws reflect what is in the best 
interests of our Nation, we should consider comprehensive 
legislation, namely the Export Administration Act, to reform 
our export control laws. For now, I am happy to support the 
legislation that is before us, and I look forward to having an 
even broader set of legislation that can clearly keep our 
competitiveness globally.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Menendez.
    Mr. Sanford.
    Mr. Sanford. I thank the Chairman. I am generally 
supportive of this bill, but I would simply raise a point of 
concern. That is, as much as it is about amending congressional 
review as opposed to abandoning congressional review, I think 
moving from 6 months to 30 days in some cases could be awkward.
    In the case of an extended recess, which from time to time 
does happen around this place, we could well be gone for longer 
than 30 days, and I would just make a point that I don't think 
we want to abandon congressional review, we want to amend it. I 
would ask that you work with the Administration in looking at 
some kind of compromise feature in the event that Congress is 
adjourned for more than 30 days.
    Chairman Gilman. Would the gentleman yield?
    Mr. Sanford. Yes, sir.
    Chairman Gilman. The gentleman raises a good point, and I 
will contact the Under Secretary of Commerce for Export 
Administration to ensure that no notifications are sent to 
Congress during any recess period. I will ensure that the 
Committee exercises full and comprehensive oversight over these 
reporting and notification problems.
    Mr. Sanford. I thank the Chairman.
    Mr. Gejdenson. Mr. Chairman, will the gentleman yield? I 
join with the Chairman to make sure that this is addressed, and 
I think the gentleman raised a very interesting point.
    Chairman Gilman. Thank you, Mr. Sanford, Mr. Gejdenson.
    I have an amendment at the desk which I ask be considered 
en bloc.
    [The amendments appear in the appendix.]
    Ms. Bloomer. Amendment offered by Mr. Gilman: Amend the 
title so as to read ``A bill to modify the congressional 
review''----
    Chairman Gilman. Without objection, the amendment is 
considered as having been read.
    This amendment provides that any proposal by the 
Administration putting forward new supercomputer performance 
levels after January 1 of this year, and before the date of 
enactment of this measure, would only become effective upon its 
enactment or 30 days after submission, whichever is later. It 
also provides a new title to the bill, clarifying that it 
provides for the modification of the congressional review 
period with respect to the adjustment of composite theoretical 
performance levels of high performance computers.
    I understand the amendment enjoys bipartisan support. I 
defer to Mr. Gejdenson for any comments he may have. Mr. 
Gejdenson.
    Mr. Gejdenson. I support the amendment and applaud the 
Chairman's efforts to improve the bill.
    Chairman Gilman. I would ask immediate consideration of the 
amendment by the Committee. All in favor, signify in the usual 
manner.
    [A chorus of ayes.]
    Chairman Gilman. Opposed?
    [No response.]
    Chairman Gilman. Carried.
    Is anyone else seeking recognition?
    [No response.]
    Chairman Gilman. If not, I ask unanimous consent that we 
set this bill aside temporarily. We don't have a quorum.
    Mr. Gejdenson. I think we have got some folks in back.
    Chairman Gilman. All right. We will pause just a moment.
    Mr. Bereuter. Mr. Chairman.
    Chairman Gilman. Mr. Bereuter.
    Mr. Bereuter. Because H. Con. Res. 295 is an anniversary 
date related bill, I wonder if we could take up that resolution 
while we are waiting for a quorum?


          H. CON. RES. 295, HUMAN RIGHTS VIOLATIONS IN VIETNAM


    Chairman Gilman. Without objection, we will proceed with H. 
Con. Res. 295, and as soon as we have a quorum, we will go on 
to the vote.
    The clerk will read the title of the resolution.
    Ms. Bloomer. H. Con. Res. 295, a concurrent resolution 
relating to continuing human rights violations and political 
oppression in the Socialist Republic of Vietnam 25 years after 
the fall of South Vietnam to Communist forces.
    Chairman Gilman. This resolution was referred to the 
Subcommittee on International Operations and Human Rights, 
which waived its consideration of the matter, and the 
Subcommittee on Asia and the Pacific, which reported it with an 
amendment in the nature of a substitute. Without objection, the 
subcommittee-recommended language will be treated as original 
text for the purpose of amendment. The clerk will read the 
preamble and operative language of the Subcommittee 
recommendation, in that order.
    Ms. Bloomer. Whereas April 30, 2000 marks the----
    Chairman Gilman. Without objection, the Subcommittee 
recommendation is considered as having been read and is open to 
amendment at any point. I recognize the gentleman from 
Nebraska, Mr. Bereuter.
    Mr. Bereuter. Mr. Chairman, this resolution was introduced 
by the gentleman from California, Mr. Rohrabacher, to express 
concern about continuing human rights violations and political 
repression in the socialist Republic of Vietnam. It was 
discussed in the Subcommittee on Asia and the Pacific. It was 
unanimously approved with an amendment. I yield my time to the 
introducer of the resolution, Mr. Rohrabacher.
    Chairman Gilman. Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I would 
like to thank you and thank the Subcommittee Chairman, Mr. 
Bereuter, for assisting me in pushing this resolution through 
the process.
    April 30th is the anniversary of the fall of Saigon and the 
end of the Vietnam War, and it is important for us to 
commemorate this time with a call for democracy and human 
rights and freedom in Vietnam, let the people of Vietnam know 
that, at this important anniversary, we have not backed away 
from the idea that they too have a right to their own human 
rights. We also in this resolution commend the Vietnamese 
American community in the United States of America, and I would 
ask my fellow colleagues to support the resolution. It is not 
controversial.
    Chairman Gilman. Thank you, Mr. Rohrabacher. I commend the 
gentleman from California for introducing this timely 
resolution on Vietnam. I want to thank the Chairman of the Asia 
and Pacific Subcommittee, Mr. Bereuter, for expediting the 
measure in Subcommittee, and I ask that the remainder of my 
statement be made part of the record, and I urge my colleagues 
to support the measure.
    [The prepared statement of Mr. Gilman appears in the 
appendix.]
    Chairman Gilman. Any further----
    Mr. Gejdenson. Mr. Chairman, just briefly, I want to 
commend the gentleman on his work. Vietnam has not had the kind 
of political, human rights and other liberalization we think it 
should have. It has clearly had some improvements in opening up 
its economy, but it is long overdue that they respect their own 
citizens' human rights and make a commitment to developing a 
free and civil society.
    Chairman Gilman. Mr. Bereuter is recognized for a motion.
    Mr. Bereuter. Mr. Chairman, I move the Chairman be 
requested to seek consideration of the pending resolution, as 
amended, on the Suspension Calendar.
    Chairman Gilman. Without objection, the question is on the 
motion by Mr. Bereuter. All those in favor, signify in the 
usual manner.
    [A chorus of ayes.]
    Chairman Gilman. Opposed?
    [No response.]
    Chairman Gilman. The ayes have it. The motion is agreed to. 
Further proceedings on this measure are postponed.


                RESUMPTION OF CONSIDERATION OF H.R. 3680


    We will now go back to H.R. 3680. So that the Committee may 
report the bill we have under consideration with a single 
amendment, the Chair will make a unanimous consent request 
that, without objection, the Committee is deemed to have before 
it an amendment in the nature of a substitute consisting of the 
text of the bill as amended to this point. Without objection, 
the amendment in the nature of a substitute is deemed read, the 
previous question is ordered on the amendment, and the 
amendment is adopted.
    Mr. Bereuter.
    Mr. Bereuter. Mr. Chairman, I move that the Committee 
report the bill to the House with a recommendation that the 
bill, as amended, be passed.
    Chairman Gilman. The question is now on the motion of the 
gentleman from Nebraska. Those in favor of the motion, signify 
by saying aye.
    [A chorus of ayes.]
    Chairman Gilman. Those opposed, say no.
    [No response.]
    Chairman Gilman. The ayes have it.
    In order to establish a quorum, a roll call vote is in 
order. The clerk will call the roll.
    Ms. Bloomer. Mr. Gilman.
    Chairman Gilman. Aye.
    Ms. Bloomer. Mr. Gilman votes yes.
    Mr. Goodling.
    [No response.]
    Ms. Bloomer. Mr. Leach.
    [No response.]
    Ms. Bloomer. Mr. Hyde.
    [No response.]
    Ms. Bloomer. Mr. Bereuter.
    Mr. Bereuter. Aye.
    Ms. Bloomer. Mr. Bereuter votes yes.
    Mr. Smith.
    [No response.]
    Chairman Gilman. I'm going to ask our Members to stand by 
so that we can take up Sierra Leone quickly, right after this. 
Thank you.
    Ms. Bloomer. Mr. Burton.
    [No response.]
    Ms. Bloomer. Mr. Gallegly.
    [No response.]
    Ms. Bloomer. Ms. Ros-Lehtinen.
    [No response.]
    Ms. Bloomer. Mr. Ballenger.
    Mr. Ballenger. Aye.
    Ms. Bloomer. Mr. Ballenger votes yes.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Yes.
    Ms. Bloomer. Mr. Rohrabacher votes yes.
    Mr. Manzullo.
    Mr. Manzullo. Aye.
    Ms. Bloomer. Mr. Manzullo votes yes.
    Mr. Royce.
    [No response.]
    Ms. Bloomer. Mr. King.
    [No response.]
    Ms. Bloomer. Mr. Chabot.
    Mr. Chabot. Aye.
    Ms. Bloomer. Mr. Chabot votes yes.
    Mr. Sanford.
    Mr. Sanford. Aye.
    Ms. Bloomer. Mr. Sanford votes yes.
    Mr. Salmon.
    Mr. Salmon. Aye.
    Ms. Bloomer. Mr. Salmon votes yes.
    Mr. Houghton.
    [No response.]
    Ms. Bloomer. Mr. Campbell.
    Mr. Campbell. Aye.
    Ms. Bloomer. Mr. Campbell votes yes.
    Mr. McHugh.
    [No response.]
    Ms. Bloomer. Mr. Brady.
    [No response.]
    Ms. Bloomer. Mr. Burr.
    [No response.]
    Ms. Bloomer. Mr. Gillmor.
    [No response.]
    Ms. Bloomer. Mr. Radanovich.
    Mr. Radanovich. Yes.
    Chairman Gilman. Mr. Radanovich votes yes.
    Mr. Cooksey.
    Mr. Cooksey. Yes.
    Ms. Bloomer. Mr. Cooksey votes yes.
    Mr. Tancredo.
    Mr. Tancredo. Aye.
    Ms. Bloomer. Mr. Tancredo votes yes.
    Mr. Gejdenson.
    Mr. Gejdenson. Aye.
    Ms. Bloomer. Mr. Gejdenson votes yes.
    Mr. Lantos.
    [No response.]
    Ms. Bloomer. Mr. Berman.
    Mr. Berman. Aye.
    Ms. Bloomer. Mr. Berman votes yes.
    Mr. Ackerman.
    [No response.]
    Ms. Bloomer. Mr. Faleomavaega.
    [No response.]
    Ms. Bloomer. Mr. Martinez.
    Mr. Martinez. Aye.
    Ms. Bloomer. Mr. Martinez votes yes.
    Mr. Payne.
    Mr. Payne. Aye.
    Ms. Bloomer. Mr. Payne votes yes.
    Mr. Menendez.
    Mr. Menendez. Aye.
    Ms. Bloomer. Mr. Menendez votes yes.
    Mr. Brown.
    Mr. Brown. Yes.
    Ms. Bloomer. Mr. Brown votes yes.
    Ms. McKinney.
    [No response.]
    Ms. Bloomer. Mr. Hastings.
    Mr. Hastings. Yes.
    Ms. Bloomer. Mr. Hastings votes yes.
    Ms. Danner.
    Ms. Danner. Aye.
    Ms. Bloomer. Ms. Danner votes yes.
    Mr. Hilliard.
    Mr. Hilliard. Aye.
    Ms. Bloomer. Mr. Hilliard votes yes.
    Mr. Sherman.
    Mr. Sherman. Aye.
    Ms. Bloomer. Mr. Sherman votes yes.
    Mr. Wexler.
    [No response.]
    Ms. Bloomer. Mr. Rothman.
    Mr. Rothman. Aye.
    Ms. Bloomer. Mr. Rothman votes yes.
    Mr. Davis.
    Mr. Davis. Aye.
    Ms. Bloomer. Mr. Davis votes yes.
    Mr. Pomeroy.
    Mr. Pomeroy. Aye.
    Ms. Bloomer. Mr. Pomeroy votes yes.
    Mr. Delahunt.
    [No response.]
    Ms. Bloomer. Mr. Meeks.
    [No response.]
    Ms. Bloomer. Ms. Lee.
    Ms. Lee. Yes.
    Ms. Bloomer. Ms. Lee votes yes.
    Mr. Crowley.
    Mr. Crowley. Aye.
    Ms. Bloomer. Mr. Crowley votes yes.
    Mr. Hoeffel.
    [No response.]
    Chairman Gilman. The clerk will call absentees.
    Ms. Bloomer. Mr. Goodling.
    Mr. Goodling. Yes.
    Ms. Bloomer. Mr. Goodling votes yes.
    Mr. Leach.
    [No response.]
    Ms. Bloomer. Mr. Hyde.
    [No response.]
    Ms. Bloomer. Mr. Smith.
    Mr. Smith. Aye.
    Ms. Bloomer. Mr. Smith votes yes.
    Mr. Burton.
    [No response.]
    Ms. Bloomer. Mr. Gallegly.
    [No response.]
    Ms. Bloomer. Ms. Ros-Lehtinen.
    [No response.]
    Ms. Bloomer. Mr. Royce.
    [No response.]
    Ms. Bloomer. Mr. King.
    Mr. King. Yes.
    Ms. Bloomer. Mr. King votes yes.
    Mr. Houghton.
    [No response.]
    Ms. Bloomer. Mr. McHugh.
    [No response.]
    Ms. Bloomer. Mr. Brady.
    [No response.]
    Ms. Bloomer. Mr. Burr.
    [No response.]
    Ms. Bloomer. Mr. Gillmor.
    [No response.]
    Ms. Bloomer. Mr. Burton.
    Mr. Burton. Aye.
    Ms. Bloomer. Mr. Burton votes yes.
    Mr. Lantos.
    [No response.]
    Ms. Bloomer. Mr. Ackerman.
    [No response.]
    Ms. Bloomer. Mr. Faleomavaega.
    [No response.]
    Ms. Bloomer. Ms. McKinney.
    [No response.]
    Ms. Bloomer. Mr. Wexler.
    [No response.]
    Ms. Bloomer. Mr. Delahunt.
    [No response.]
    Ms. Bloomer. Mr. Meek.
    [No response.]
    Ms. Bloomer. Mr. Hoeffel.
    [No response.]
    Chairman Gilman. The clerk will report the tally.
    Ms. Bloomer. On this vote there were 31 ayes and zero noes.
    Mr. Smith. Mr. Chairman?
    Chairman Gilman. The ayes have it. The motion is agreed to.
    Who is seeking recognition?
    Mr. Smith. Mr. Chairman.
    Chairman Gilman. Mr. Smith.
    Mr. Smith. I would ask unanimous consent that a statement 
on the Vietnamese resolution be made a part of the record. I 
was in the next room speaking with----
    Chairman Gilman. Without objection.
    Mr. Smith. If I could just say very briefly, I was in 
Vietnam on a factfinding trip with staff, Joseph Rees, and with 
Peter Hickey, last December, and we raised a number of 
important human rights issues in Vietnam, including the 
continued crackdown on religious believers, whether it be the 
Catholic Church. We met with Archbishop Man; we met with Dr. 
Que, who is one of the leading dissidents, who is under virtual 
house arrest. He is followed, his phone is tapped.
    It is very important that we reiterate in the strongest 
possible way our concern that human rights have deteriorated in 
Vietnam. There is a situation where Radio Free Asia is being 
jammed by the Vietnamese government. They also have a 2-child-
per-couple policy, and not so long ago one of the employees who 
worked for the U.S. orderly departure program, who was hired 
through the Vietnamese Government agency, was fired when she 
had an unauthorized child, so coercion is alive and well in 
population control in Vietnam.
    I yield back.
    [The prepared statement of Mr. Smith appears in the 
appendix.]
    Chairman Gilman. Thank you very much.
    Mr. Crowley. Mr. Chairman.
    Chairman Gilman. Without objection, the Chair or his 
designee is authorized to make motions under Rule XXII with 
respect to a conference on this bill or a counterpart from the 
Senate.
    Who is seeking recognition?
    Mr. Crowley. Mr. Chairman.
    Chairman Gilman. Mr. Crowley.
    Mr. Crowley. I ask unanimous consent to have my remarks on 
this bill included in the record, and also on H. Res. 464, the 
first bill, and H.R. 3680.
    [The statement of Mr. Crowley on H.R. 3680 appears in the 
appendix.]
    Chairman Gilman. Without objection, all Members will have 
time to add their remarks.


                        H.R. 3879, SIERRA LEONE


    We now take up H.R. 3879, relative to assistance to Sierra 
Leone. The bill was referred by the Speaker to the Committee on 
International Relations, also the Committee on the Judiciary, 
in each case for consideration of such provisions as fall 
within the jurisdiction of the committee concerned. The Chair 
lays the bill before the Committee.
    [The bill appears in the appendix.]
    The clerk will report the title of the bill.
    Ms. Bloomer. H.R. 3879, a bill to support the Government of 
the Republic of Sierra Leone in its peace-building efforts, and 
for other purposes.
    Chairman Gilman. Without objection, the first reading of 
the bill is dispensed with. The clerk will read the enacting 
clause.
    Ms. Bloomer. Be it enacted by the Senate and House of 
Representatives----
    Chairman Gilman. Without objection, the bill is considered 
as having been read. This bill was referred the Subcommittees 
on Africa, and International Operations and Human Rights, and 
International Economic Policy and Trade. The latter two 
Subcommittees have waived further consideration of the measure. 
The Subcommittee on Africa considered the bill yesterday and 
recommended its passage, as amended by an amendment in the 
nature of a substitute.
    Without objection, the Committee will consider the 
Subcommittee's amendment in the nature of a substitute as 
original text for the purpose of amendment. The clerk will read 
the Subcommittee's amendment for amendment.
    Ms. Bloomer. To support the Government of Sierra Leone in 
its peace-building efforts, and for other purposes----
    Chairman Gilman. Without objection, the Subcommittee's 
amendment is considered as having been read. I now recognize 
the Chairman of the Subcommittee on Africa, the gentleman 
from--who is seeking recognition? Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman.
    I would like to ask the State Department, the 
Administration, if they are supportive of the legislation. 
Would you come up and identify yourself, if you are?
    Mr. Guest. Yes, my name is Michael Guest. I am Deputy 
Assistant Secretary in the Bureau of Legislative Affairs at the 
Department of State, and thank you very much for asking our 
views of this legislation. Mr. Chairman, we very strongly 
support this bill and the goals that it reflects.
    Mr. Bereuter. I would say to the representative of the 
State Department, this is an authorization of funds, and it is 
the Legislative Branch, the House of Representatives, taking a 
position in support of authorization, which seems to be 
inconsistent with the views of the Administration. They don't 
seem to want us to do any authorizing here.
    Mr. Guest. Mr. Chairman, as I understand it, these are 
additional funds that are authorized for Sierra Leone, and 
these are not an earmark from previously budgeted funds from 
the State Department which, as you know, are very, very tight.
    Mr. Bereuter. But this is an authorization bill, and surely 
you don't want this Committee doing any authorization, do you?
    [Laughter.]
    Thank you. This has been a rhetorical question for you. I 
am building the case for the lack of consistency in 
administration policy.
    Thank you, Mr. Chairman.
    Chairman Gilman. Mr. Campbell.
    [No response.]
    Chairman Gilman. Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman. Let me just say we 
appreciate you bringing up this very important resolution, and 
in trying to conserve time, I just would ask that we support 
this legislation. It goes to help demobilization, 
demilitarization and reintegration, and the Truth and 
Reconciliation Commission, and goes to try to build democracy. 
We think that it is very important that we move into Sierra 
Leone before there is continued degradation, and so I just urge 
support of this resolution.
    Chairman Gilman. I thank the gentleman, and I support the 
measure introduced by our Ranking Member, Mr. Gejdenson, and 
fully considered by the Subcommittee. I would like to express 
strong confidence Sierra Leone will enjoy a peaceful, 
democratic future, but I cannot have that confidence.
    I fear that the significant problems and the lack of 
cooperation the U.N. peacekeepers in Sierra Leone have 
experienced since the outset of their deployment will continue, 
and I fear the Revolutionary United Front, which has waged a 
war of terror and atrocity against its own citizens, has not 
changed in its ultimate objective, and that is complete 
dominance of Sierra Leone. Nevertheless, I support the measure 
on the basis that we must make every effort and even make some 
changes where the future of so many innocent, suffering people 
is concerned.
    Mr. Campbell.
    Mr. Campbell. Mr. Chairman, I have an amendment at the desk 
which I hope will be agreeable to all----
    [The amendment appears in the appendix.]
    Chairman Gilman. The clerk will read the amendment.
    Mr. Campbell. Mr. Chairman, maybe I can explain the 
amendment. I brought it down to the desk about 5 minutes ago, 
and they may not have replicated it. If I can take the time to 
explain it now, I can actually try a unanimous consent.
    Chairman Gilman. The gentleman is recognized on the 
amendment.
    Mr. Campbell. It is simply this: I think we should be 
spending more money on the demobilization/demilitarization and 
not target for political parties. So we have $10 million for 
demobilization and $3 million for electoral assistance. They 
are nowhere near elections in Sierra Leone.
    I would like to see the $3 million moved into that first 
category for demobilization, where the need is immediate. It 
will bring that up to $13 million, and take the $3 million away 
from efforts at assisting political parties. I base that on the 
fact of timing in Sierra Leone, what they need, and also a 
skepticism as to effectiveness in training political parties, 
as opposed to my optimism in getting demobilization underway.
    Mr. Chairman, I came to the mark-up yesterday in 
Subcommittee. Regrettably, it had already gaveled down by the 
time I came. But in brief discussions, I am hopeful that this 
would be acceptable to the Ranking Member. At risk that he will 
say no, I still yield to my good friend, Mr. Payne.
    Chairman Gilman. Mr. Payne.
    Mr. Payne. Yes, I can concur with the gentleman from 
California. I think that the immediate situation right now will 
call for as much as we can do in the whole question of 
demobilization and reintegration and those things. What we 
would hopefully have in our next year, as we move closer to the 
elections, is no less than $3 million and up to a higher number 
put in for elections. So I accept the amendment.
    Chairman Gilman. Mr. Campbell, do you have a copy of your 
text of your amendment?
    Mr. Campbell. I do, and if you suspend for 2 minutes, go 
back to the business, I will have it in that time. Thank you.
    Chairman Gilman. Any other? Mr. Gejdenson.
    Mr. Gejdenson. Mr. Chairman, I am not going to resist the 
Ranking Member on our side, his decision here, and Mr. Campbell 
on this. I am concerned that we don't early enough in the 
process often make commitments to building political parties. 
They don't occur in a vacuum, especially where there is very 
little tradition of democratic institutions and party-building. 
So I would hope that we would quickly come back and provide 
some funds to make sure that the building blocks of democracy 
are established, so we are not just constantly coming back and 
picking up the ravages of civil war and people who ignore 
democratic procedure.
    Chairman Gilman. The clerk will report the amendment.
    Ms. Bloomer. Amendment offered by Mr. Campbell: Page 5, 
lines 17 through 25, strike----
    Chairman Gilman. The amendment is considered as having been 
read. The question is now on the amendment offered by Mr. 
Campbell. All in favor, signify in the usual manner.
    [A chorus of ayes.]
    Chairman Gilman. Those opposed, say no.
    [No response.]
    Chairman Gilman. The amendment is agreed to.
    Are there any further amendments? Any Members seeking 
recognition?
    [No response.]
    Chairman Gilman. If not, Mr. Bereuter is recognized.
    Mr. Bereuter. Mr. Chairman.
    Chairman Gilman. Yes, Mr. Bereuter.
    Mr. Bereuter. I move that the Chairman be requested to seek 
consideration of the pending bill on the Suspension Calendar.
    Chairman Gilman. Without objection, the motion is agreed 
to. Without objection, the Chair or his designee is authorized 
to make motions under Rule XXII with respect to a conference on 
this bill or a counterpart from the Senate.
    I would like to notify our Members that our Committee will 
meet again in mark-up session during the week of May 2nd, right 
after the recess, to consider items we did not have time for on 
this agenda and any additional items that may come before the 
Committee. The Committee stands adjourned.
    [Whereupon, at 12:15 p.m., the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                             April 13, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T7626.001
    
    [GRAPHIC] [TIFF OMITTED] T7626.002
    
    [GRAPHIC] [TIFF OMITTED] T7626.003
    
    [GRAPHIC] [TIFF OMITTED] T7626.004
    
    [GRAPHIC] [TIFF OMITTED] T7626.005
    
    [GRAPHIC] [TIFF OMITTED] T7626.006
    
    [GRAPHIC] [TIFF OMITTED] T7626.007
    
    [GRAPHIC] [TIFF OMITTED] T7626.008
    
    [GRAPHIC] [TIFF OMITTED] T7626.009
    
    [GRAPHIC] [TIFF OMITTED] T7626.010
    
    [GRAPHIC] [TIFF OMITTED] T7626.011
    
    [GRAPHIC] [TIFF OMITTED] T7626.012
    
    [GRAPHIC] [TIFF OMITTED] T7626.013
    
    [GRAPHIC] [TIFF OMITTED] T7626.014
    
    [GRAPHIC] [TIFF OMITTED] T7626.015
    
    [GRAPHIC] [TIFF OMITTED] T7626.016
    
    [GRAPHIC] [TIFF OMITTED] T7626.017
    
    [GRAPHIC] [TIFF OMITTED] T7626.018
    
    [GRAPHIC] [TIFF OMITTED] T7626.019
    
    [GRAPHIC] [TIFF OMITTED] T7626.020
    
    [GRAPHIC] [TIFF OMITTED] T7626.021
    
    [GRAPHIC] [TIFF OMITTED] T7626.022
    
    [GRAPHIC] [TIFF OMITTED] T7626.023
    
    [GRAPHIC] [TIFF OMITTED] T7626.024
    
    [GRAPHIC] [TIFF OMITTED] T7626.025
    
    [GRAPHIC] [TIFF OMITTED] T7626.026
    
    [GRAPHIC] [TIFF OMITTED] T7626.027
    
    [GRAPHIC] [TIFF OMITTED] T7626.028
    
    [GRAPHIC] [TIFF OMITTED] T7626.029
    
    [GRAPHIC] [TIFF OMITTED] T7626.030
    
    [GRAPHIC] [TIFF OMITTED] T7626.031
    
    [GRAPHIC] [TIFF OMITTED] T7626.032
    
    [GRAPHIC] [TIFF OMITTED] T7626.033
    
    [GRAPHIC] [TIFF OMITTED] T7626.034
    
    [GRAPHIC] [TIFF OMITTED] T7626.035
    
    [GRAPHIC] [TIFF OMITTED] T7626.036
    
    [GRAPHIC] [TIFF OMITTED] T7626.037
    
    [GRAPHIC] [TIFF OMITTED] T7626.038
    
    [GRAPHIC] [TIFF OMITTED] T7626.039
    
    [GRAPHIC] [TIFF OMITTED] T7626.040
    
    [GRAPHIC] [TIFF OMITTED] T7626.041
    
    [GRAPHIC] [TIFF OMITTED] T7626.042
    
    [GRAPHIC] [TIFF OMITTED] T7626.043
    
    [GRAPHIC] [TIFF OMITTED] T7626.044
    
    [GRAPHIC] [TIFF OMITTED] T7626.045
    
    [GRAPHIC] [TIFF OMITTED] T7626.046
    
    [GRAPHIC] [TIFF OMITTED] T7626.047
    
    [GRAPHIC] [TIFF OMITTED] T7626.048
    
    [GRAPHIC] [TIFF OMITTED] T7626.049
    
    [GRAPHIC] [TIFF OMITTED] T7626.050
    
    [GRAPHIC] [TIFF OMITTED] T7626.051
    
    [GRAPHIC] [TIFF OMITTED] T7626.052
    
    [GRAPHIC] [TIFF OMITTED] T7626.053
    
    [GRAPHIC] [TIFF OMITTED] T7626.054
    
    [GRAPHIC] [TIFF OMITTED] T7626.055
    
    [GRAPHIC] [TIFF OMITTED] T7626.056
    
    [GRAPHIC] [TIFF OMITTED] T7626.057
    
    [GRAPHIC] [TIFF OMITTED] T7626.058
    
    [GRAPHIC] [TIFF OMITTED] T7626.059
    
    [GRAPHIC] [TIFF OMITTED] T7626.060
    
    [GRAPHIC] [TIFF OMITTED] T7626.061
    
    [GRAPHIC] [TIFF OMITTED] T7626.062
    
    [GRAPHIC] [TIFF OMITTED] T7626.063
    
    [GRAPHIC] [TIFF OMITTED] T7626.064
    
    [GRAPHIC] [TIFF OMITTED] T7626.065
    
    [GRAPHIC] [TIFF OMITTED] T7626.066
    
    [GRAPHIC] [TIFF OMITTED] T7626.067
    
    [GRAPHIC] [TIFF OMITTED] T7626.068
    
    [GRAPHIC] [TIFF OMITTED] T7626.069
    
    [GRAPHIC] [TIFF OMITTED] T7626.070
    
    [GRAPHIC] [TIFF OMITTED] T7626.071
    
    [GRAPHIC] [TIFF OMITTED] T7626.072
    
    [GRAPHIC] [TIFF OMITTED] T7626.073
    
    [GRAPHIC] [TIFF OMITTED] T7626.074
    
    [GRAPHIC] [TIFF OMITTED] T7626.075
    
    [GRAPHIC] [TIFF OMITTED] T7626.076
    
    [GRAPHIC] [TIFF OMITTED] T7626.077
    
    [GRAPHIC] [TIFF OMITTED] T7626.078
    
    [GRAPHIC] [TIFF OMITTED] T7626.079
    
    [GRAPHIC] [TIFF OMITTED] T7626.080
    
    [GRAPHIC] [TIFF OMITTED] T7626.081
    
    [GRAPHIC] [TIFF OMITTED] T7626.082
    
    [GRAPHIC] [TIFF OMITTED] T7626.083
    
    [GRAPHIC] [TIFF OMITTED] T7626.084
    
    [GRAPHIC] [TIFF OMITTED] T7626.085
    
    [GRAPHIC] [TIFF OMITTED] T7626.086
    
    [GRAPHIC] [TIFF OMITTED] T7626.087
    
    [GRAPHIC] [TIFF OMITTED] T7626.088
    
    [GRAPHIC] [TIFF OMITTED] T7626.089
    
    [GRAPHIC] [TIFF OMITTED] T7626.090
    
    [GRAPHIC] [TIFF OMITTED] T7626.091
    

</pre></body></html>
